Office of Inspector General


June 7, 2013

MEMORANDUM

TO:                  Kent Kuyumjian, Acting Chief Financial Officer
                     Office of the Chief Financial Officer

FROM:                Nathan S. Lokos, Acting Director /s/
                     Performance Audits Division, Office of Inspector General

SUBJECT:             Review of USAID’s Partner-Country and Local Organization Assessments Under
                     Implementation and Procurement Reform (Report No. 9-000-13-003-S)

This memorandum transmits our final report on the subject review. In finalizing the report, we
considered your comments and included your response in Appendix II.

The report contains seven recommendations to help strengthen the implementation of USAID’s
assessments of partner-country institutions under Implementation and Procurement Reform.
Management decisions have been made on all seven recommendations. Please provide the
Audit Performance and Compliance Division with evidence of final action to close the open
recommendations.

Thank you for the cooperation and courtesy extended to us during the review.




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
http://oig.usaid.gov
SUMMARY 

In August 2010, USAID introduced its reform agenda, USAID Forward, to transform the Agency
through new partnerships, innovation, and greater emphasis on results. The reform agenda
aligns with U.S. foreign policy guidance expressed in the President’s Global Development
Policy, which emphasizes sustainable development and country ownership and responsibility.
USAID Forward was developed through the 2010 Quadrennial Diplomacy and Development
Review and contains seven reform initiatives, including implementation and procurement reform
(IPR).1

The premise of IPR is that establishing implementation mechanisms to engage directly with
partner governments and civil society is a key factor in achieving permanent and
transformational development results. IPR and U.S. development policy reflect broader aid
effectiveness principles. Since March 2005, international forums—the Paris Declaration on Aid
Effectiveness, the Accra Agenda for Action, and the Busan Partnership for Effective
Development Co-operation—have outlined the donor community’s commitments to improving
aid effectiveness.

Most recently, donors at the 2011 Busan meeting committed to considering partner-country
systems as a first option in implementing development assistance, thereby promoting partner-
country ownership of development efforts. In this vein, the first two objectives of IPR seek to
improve aid effectiveness and sustainability by strengthening the capacity of partner countries
and local organizations to deliver development results. By 2015, USAID anticipates
implementing up to 30 percent of its program funds through partner-country systems2 and local
organizations.3

This review gauges USAID’s performance in assessing and managing the risks associated with
IPR Objectives 1 and 2. Specifically, it examines USAID’s efforts in assessing public financial
management systems of partner countries to determine the suitability of using those systems for
implementing USAID-funded assistance. The review also assesses the use of USAID’s
preaward survey tool to determine whether local organizations have sufficient financial and
managerial capacity to manage USAID funds. The summary results of our review of Objective 1
are presented below, and the summary results related to Objective 2 start on page 3.

IPR Objective 1. The first objective of IPR focuses on strengthening partner-country capacity to
improve aid effectiveness and sustainability and increasing use of reliable partner-country
systems and institutions. Before using these, USAID is required to assess them using the Public
Financial Management Risk Assessment Framework (the framework),4 a tool developed by
USAID’s Office of the Chief Financial Officer (CFO). The framework encompasses five stages,
starting with Stage 1 Rapid Appraisal, which examines country-level fiduciary risk and political


1
  USAID changed the name of this initiative from IPR to Local Solutions in April 2013.

2
  Partner-country systems are arrangements and procedures for public financial management (the chain 

of activities related to budget execution), procurement, internal and external audit, and human resources. 

3
  USAID may also count the amount implemented through partner-country systems from pooled funding

arrangements with bilateral or multilateral organizations and Development Credit Authority guarantees 

when the recipient is a local organization.

4
  USAID provides direct assistance to Afghanistan, Pakistan, and other countries subject to the Agency’s 

Automated Directives System Chapter 220, which gives them 3 years to comply with the framework. 


                                                                                                         1
or security factors that exacerbate fiduciary risk.5 Stage 2 Risk Assessment identifies fiduciary
risk at ministries, departments, agencies, or subnational units of government and, as
appropriate, proposes measures to mitigate those risks. Stages 3 through 5 address project
design, bilateral agreement, and implementation.

We answered the following three questions related to Objective 1:

1. 	 Do the Stage 1 rapid appraisals provide a high-level snapshot of fiduciary risks associated
     with use of partner-country public financial management systems and help inform decisions
     about whether to undertake a more rigorous, formal Stage 2 risk assessment?

    We found that 23 of 24 Stage 1 rapid appraisals from the 24 missions reviewed provided a
    high-level snapshot of fiduciary risks associated with the use of partner-country public
    financial management systems and helped inform decisions on whether to undertake a
    more rigorous, formal Stage 2 risk assessment. USAID/South Africa’s Stage 1 rapid
    appraisal was the only exception; the appraisal report understated risks.

2. 	 Do the Stage 2 risk assessments provide a reasonable basis for deciding whether to use
     partner-country public financial management systems?

    We found that the risk assessments did not always provide a reasonable basis for deciding
    whether to use partner-country systems. Of 34 risk assessments from seven missions we
    reviewed, 16 of USAID/Ghana’s assessments and 1 assessment by USAID/Peru’s did not
    provide a reasonable basis.6 However, the remaining 17 risk assessments from the other
    five missions provided a reasonable basis for using partner-country public financial
    management systems.

3. 	 Were risk mitigation measures developed and implemented when appropriate?

    We found that all seven missions that performed Stage 2 risk assessments had developed
    risk mitigation measures. While two countries (Peru and Jordan) had begun to implement
    the measures, the rest were not yet at the implementation stage.

In reviewing USAID’s implementation of the early stages of the framework, we noted two areas
for improvement—oversight, and policy and guidance:

1. 	 USAID did not sufficiently establish oversight roles for the assessment process (page 5).
     CFO’s Global Partner Country Systems Risk Management Team exerted little quality control
     over the rollout of the Stage 2 process. As a result, the quality of Stage 2 risk assessments
     varied. For example, USAID/Ghana’s Stage 2 assessments related to the Resiliency in
     Northern Ghana Project lacked rigor and did not provide a reasonable basis for using
     partner-country systems.



5
  Fiduciary risk is the danger that funds allocated from the budget may (1) lack proper control, (2) be used
for purposes other than those intended, or (3) produce inefficient or uneconomic programmatic results.
6
   The seven missions whose risk assessments we reviewed were Bangladesh (1), Ghana (18),
Jordan (1), Moldova (1), Peru (1), Rwanda (10), and Tanzania (2). They were the only countries in our
review with Stage 2 risk assessments; we reviewed all assessments completed as of August 7, 2012, for
these seven countries.

                                                                                                          2
2. 	Assessment guidance did not effectively address three key issues (page 7). They were
    (1) the relationship between project design and the assessment process and how these
    inform one another, (2) consideration of the technical capacity of the proposed entity to
    implement the specific type of program, and (3) the appropriate type and extent of testing in
    Stage 2 risk assessments, as well as documentation of that testing. As a result, the
    assessments varied greatly in the extent to which they addressed those three areas.

To address these issues we recommend that:

1. 	 CFO, in coordination with USAID/Ghana, (1) conduct an onsite review of USAID/Ghana’s
     implementation of the Public Financial Management Risk Assessment Framework for the
     Resiliency in Northern Ghana Project to confirm that all material risks were identified and
     effective mitigation measures developed and (2) implement procedures to verify that all
     future Stage 2 assessments comply with framework guidance (page 7).

2. 	 CFO review and approve updates to the USAID/South Africa Stage 1 appraisal to verify that
     fiduciary risks are clearly identified and assessed (page 7).

3. 	CFO revise Automated Directives System (ADS) Chapter 220 and Stage 1 and Stage 2
    guidance to assign a more active oversight role to the Global Partner Country Systems Risk
    Management Team, including applying additional quality assurance controls over the
    assessment process (page 7).

4. 	CFO, in coordination with the Bureau for Policy, Planning and Learning, revise ADS
    Chapter 220 and Public Financial Management Risk Assessment Framework guidance to
    explain how the framework and project design relate to one another (page 9).

5. 	CFO, in coordination with the Bureau for Policy, Planning and Learning, revise ADS
    Chapter 220 and Public Financial Management Risk Assessment Framework guidance to
    elaborate on how technical capacity evaluations should be used to inform the Public
    Financial Management Risk Assessment Framework (page 9).

6. 	CFO revise Stage 2 guidance to describe the importance and types of public financial
    management testing and require missions to document the type and extent of testing
    performed in Stage 2 assessments (page 10).

7. 	 CFO verify that USAID/Peru updates its Stage 2 assessment of the Regional Government of
     San Martin by testing relevant areas of public financial management to determine the
     effectiveness of system operations and internal controls, identify risks and modify its risk
     mitigation plan as appropriate, and maintain supporting documentation for all testing
     performed to demonstrate due diligence in accordance with ADS Chapter 220 (page 10).

IPR Objective 2. We also reviewed USAID’s efforts under Objective 2 to strengthen local civil
society and private sector capacity to improve aid effectiveness and sustainability. Specifically,
we examined the use of one of the Agency’s local capacity development tools under
Objective 2, the Non-U.S. Organization Pre-Award Survey. The preaward survey instrument was
developed to facilitate a responsibility determination7 for any non-U.S. nongovernmental

7
  A determination that a local organization “has the capacity to adequately perform on the award in
accordance with the principles established by USAID and the Office of Management and Budget”
(ADS 303.3.9, “Pre-Award Responsibility Determination.”

                                                                                                 3
organization being considered for a USAID grant or cooperative agreement. According to
Agency guidance, the preaward survey helps determine whether the local organization’s
financial management and internal control systems are adequate to manage, control, account
for, and report on the uses of potential USAID funds, thus protecting the U.S. Government’s
interests.

We answered the following two questions related to Objective 2:

1. 	Did missions conduct the Non-U.S. Organization Pre-Award Survey in accordance with
    applicable guidelines, and did the survey serve its purpose of facilitating a responsibility
    determination for any non-U.S. nongovernmental organization or the eligibility of an
    organization when competition was limited to local entities?

   We found that all four missions—Armenia, Philippines, Rwanda, and South Africa—had
   conducted the survey in accordance with applicable guidelines and that the survey had
   facilitated a responsibility determination.

   Those who evaluated partner-country systems said the preaward survey tool was generally
   a useful, standardized method for reviewing the adequacy of an organization’s financial and
   managerial capacity and facilitating a responsibility determination.

2. 	 Were risk mitigation measures developed and implemented when appropriate?

   We found that all four missions had developed risk mitigation measures. Two missions
   (Rwanda and South Africa) had implemented risk mitigation measures. The other two
   missions (Armenia and Philippines) were not yet at implementation stage.

Detailed results follow, and the scope and methodology appear in Appendix I. Management
comments will appear in Appendix II, and our evaluation of management comments is included
on page 11 of the report.




                                                                                              4
REVIEW RESULTS

USAID Did Not Sufficiently Establish
Oversight Roles for Assessments
Management officials entrusted with public resources are responsible for carrying out public
functions effectively, efficiently, and economically. According to ADS Chapter 220, “Use of
Reliable Partner Country Systems for Direct Management and Implementation of Assistance,”
CFO is responsible for supporting missions and controllers in the application of the Public
Financial Management Risk Assessment Framework and establishing and overseeing the
Global Partner Country Systems Risk Management Team (risk management team).8 In turn, the
risk management team must assure quality control for risk assessments conducted under the
framework, monitor the use of the partner-country systems, review the due diligence conducted
by the teams that evaluated partner-country systems (assessment teams), and ensure that
USAID’s training programs related to use of the framework and related policies are current and
effective.

CFO was heavily involved in Stage 1. After completing pilot rapid appraisals in three countries,
the office issued the first draft of the Stage 1 guidance. In addition, CFO participated directly on
the Stage 1 assessment teams. All but two of the mission-completed Stage 1 appraisals
reviewed by the Office of Inspector General (OIG) had CFO representation on the assessment
teams. Most missions reported that CFO participation on the teams was invaluable; CFO was
able to provide guidance and feedback throughout the process, ensuring that the team focused
on significant issues and helped develop mission capacity. CFO was generally proactive in
incorporating lessons learned into subsequent revisions to the Stage 1 guidance.

In contrast, CFO had relatively limited involvement in rolling out Stage 2 of the assessment
process. Risk assessments were not piloted, nor was Stage 2 guidance issued in a timely
manner according to the timeline shown in Appendix IV. Although CFO was available for
assistance remotely, CFO staff members did not participate on the Stage 2 assessment teams
as they had for Stage 1. The draft Stage 2 questionnaire was issued in August 2010, but it
lacked accompanying guidance. ADS Chapter 220 guidance was issued in August 2011;
however, the information it contained regarding the Stage 2 assessment process was too
general and of limited use for missions conducting the Stage 2 assessments. Several missions
commented on the need for better guidance and support for Stage 2.

We noted the following weaknesses, all of which stemmed from the absence of CFO
involvement and insufficient guidance:

	 The Stage 2 assessments were completed entirely by mission staff or contractors. Their
   varying levels of expertise and experience resulted in assessments of varying quality.
   Although Stage 2 assessments were initiated as early as June 2011, according to CFO, the
   first mission-completed Stage 2 assessment that complied “in letter and spirit” was not
   completed until early 2013.




8
    Throughout this report CFO refers to the risk management team.


                                                                                                  5
	 The initial Stage 2 risk assessments completed by USAID/Ghana—one of the first missions
   to perform them—had significant weaknesses. USAID/Ghana used a local contractor to
   complete 15 risk assessments for the Resiliency in Northern Ghana Project, but these
   assessments of 15 districts lacked rigor to support conclusions about relevant areas of
   public financial management and did not provide a reasonable basis for using partner-
   country systems. The mission performed an additional assessment of a regional council
   related to the project, but it also lacked rigor. Further, the mission decided to conduct “mini-
   assessments” to supplement the contractor’s work, but the additional work did not clearly
   demonstrate sufficient testing of the contractor’s conclusions. The contractor- and mission-
   performed assessments and some of the supplemental work were completed before
   issuance of detailed Stage 2 guidance. The Stage 2 questionnaire was available at the time,
   but its application in conducting the assessments was not understood by the mission or
   contractor.

	 Although CFO intended for missions to customize the Stage 2 questionnaire by completing
   only those parts of the questionnaire relevant to the public financial management risk
   associated with the proposed project and entity, several missions inadvertently completed
   the questionnaire in its entirety, spending unnecessary time and resources.

	 Because of scheduling conflicts, USAID/South Africa decided to conduct the Stage 1
   appraisal without CFO representation on the assessment team. This lack of CFO
   participation, combined with the lack of comprehensive guidance available at the time—the
   appraisal was conducted in April 2011, but ADS Chapter 220 was not issued until August
   2011—contributed to confusion over the Stage 1 process. Moreover, the assessment team
   did not adequately vet the Stage 1 report before sending it to CFO. Consequently,
   USAID/South Africa produced a Stage 1 appraisal that was not satisfactory: the report
   understated certain fiduciary risks associated with the use of the country’s public financial
   management systems.

CFO exerted little quality control over the rollout of the Stage 2 process because the CFO staff
was fully engaged in providing assistance to missions for the concurrent Stage 1 appraisals and
in drafting ADS and Stage 1 guidance. CFO officials said their team was understaffed by at
least two positions when the process was initiated. Officials also explained that since USAID’s
administration was strongly pushing for increased Agency-wide government-to-government
assistance, the assessment framework had to be constructed while it was being deployed. CFO
told missions not to wait for guidance to be issued before proceeding to Stage 2. Missions were
required to comply with the draft ADS Chapter 220 guidance and were encouraged to use the
Stage 2 questionnaire, but the draft ADS Chapter 220 was not clear on Stage 2 requirements.
Without accompanying guidance and direction by CFO, the Stage 2 questionnaire was widely
misunderstood.

Another complication is that ADS lacks detail on CFO’s obligation to provide oversight. Although
ADS Chapter 220 makes CFO responsible for quality control, CFO officials describe their role
as that of a “helpdesk,” meaning that missions must solicit their assistance. Further, the
guidance is not clear on what reviews and clearances CFO needs to provide during the
assessment process. Therefore, CFO officials are not confident that missions are submitting all
relevant documents to CFO for review and clearance. Moreover, ADS Chapter 220 does not
grant explicit authority to CFO to continue or stop the assessment process. OIG observed that
CFO did not clearly flag issues related to the Ghana Stage 2 assessments.



                                                                                                 6
Although OIG notified USAID/Ghana and USAID/South Africa of the above weaknesses, and
CFO has reported progress—namely that more Stage 2 work has been done, formal framework
training has been initiated, and the quality of the assessments has improved—we make the
following recommendations to be sure corrective actions are satisfactorily completed in
USAID/Ghana and USAID/South Africa and to strengthen CFO quality control over the
assessment process.

      Recommendation 1. We recommend that the Office of the Chief Financial Officer, in
      coordination with USAID/Ghana, (1) conduct an onsite review of USAID/Ghana’s
      implementation of the Public Financial Management Risk Assessment Framework for
      the Resiliency in Northern Ghana Project to confirm that all material risks were identified
      and effective mitigation measures developed and (2) implement procedures to verify that
      all future Stage 2 assessments comply with guidance for the Public Financial
      Management Risk Assessment Framework.

      Recommendation 2. We recommend that the Office of the Chief Financial Officer
      review and approve updates to the USAID/South Africa Stage 1 appraisal to verify that
      fiduciary risks are clearly identified and assessed.

      Recommendation 3. We recommend that the Office of the Chief Financial Officer revise
      Automated Directives System Chapter 220 and Stage 1 and Stage 2 guidance to assign
      a more active oversight role to the Global Partner Country Systems Risk Management
      Team, including applying additional quality assurance controls over the assessment
      process.

Assessment Guidance Did Not
Effectively Address Three Key Issues

Controls over program operations include policies and procedures. Consequently, it is important
that such policies and procedures be well designed and effective. ADS Chapter 220, “Use of
Reliable Partner Country Systems for Direct Management and Implementation of Assistance,”
provides policy directives and required procedures for determining the suitability of partner-
country systems for implementing USAID-funded assistance. Subsequent guidance on the Public
Financial Management Risk Assessment Framework provides further detailed procedures.

Despite the importance of having well-designed and effective policies and procedures, ADS
Chapter 220 and the subsequent guidance for the Public Financial Management Risk
Assessment Framework do not adequately address three key issues. Specifically, the policy
and guidance do not explain how the framework fits within a broader project design context, do
not adequately address technical capacity, and do not explain the importance of testing.

	 The guidance is unclear about the relationship between project design and the framework
   for government-to-government projects and does not address how these two processes
   inform one another. Existing policy suggests that they are parallel processes.

	 ADS Chapter 2209 states that missions should consider the technical capacity—i.e.,
   expertise in technical areas such as health, education, and agriculture—of the proposed
   partner entity to implement the specific type of program being contemplated by USAID when

9
    The revision of March 26, 2012.

                                                                                                    7
   planning both the rapid appraisal and the risk assessment. However, this statement does
   not appear sufficient; officials from several missions expressed the need for elaboration on
   how to integrate the technical capacity evaluation into the assessment process.

	 ADS Chapter 220 and framework guidance do not explain the importance of testing public
   financial management systems in supporting conclusions about the suitability of partner-
   country systems. The guidance also does not describe appropriate types of testing or
   require that missions document the type and extent of testing performed in their Stage 2
   assessments to support conclusions about the suitability of those systems.

ADS and framework guidance do not explain where the framework fits in the project design
process because, at the time CFO began implementing the framework, the Bureau for Policy,
Planning and Learning was simultaneously piloting Country Development and Cooperation
Strategies, and coordination between the two offices was limited. These two Agency priorities
were being implemented simultaneously, and CFO opined that any issue of coordination
between the assessment and project design processes would work itself out at the mission
level.

Furthermore, because the framework guidance was developed independently of the project
design guidance, the framework guidance focuses solely on public financial management
capacity without addressing the importance of evaluating technical capacity and how or when to
use those evaluations to inform Stage 2 risk assessments.

Regarding testing, according to CFO, the conduct of assessments is intended to be a “mission-
led and mission-driven process.” Therefore, CFO left it to the mission staff performing the
assessments to determine what testing was needed and appropriate.

In the absence of clear guidance, the assessments varied greatly in the extent to which they
addressed the three areas. Missions began assessments at various stages of project design,
did not always consider technical evaluations when performing their Stage 2 assessments, and
performed varying amounts of testing without explanation, ranging from very limited to adequate
across relevant areas of public financial management.

	 Missions began assessments at various stages of project design, sometimes missing
   opportunities to tailor assessments. Some missions began to implement the framework
   before having a clear strategy laying out the country’s development objectives and desired
   results. Missions noted challenges in reconciling the assessments with project design.
   USAID/Nepal noted that it was difficult planning and developing a framework strategy
   without a mission strategy that guided areas of focus. According to the mission, if it had first
   developed clear goals for each development sector, it would have been able to tailor
   assessments to entities it planned to work with. Performing assessments without a clear
   mandate or the prospect of government-to-government programming opportunities could
   result in a labor-intensive process that wastes time and resources.

   Other missions, such as USAID/East Timor and USAID/Rwanda, described the benefits of
   having a Country Development and Cooperation Strategy in place and performing
   assessments and project design in a sequence that improves the utility of assessments.
   USAID/Rwanda recommended determining the development objective, the appropriate
   government institution to further the objective, and the type of instrument to be used before
   proceeding with a Stage 2 assessment. Without coordination between USAID offices in
   Washington at the outset and clear guidance about how these two processes inform one

                                                                                                 8
      another, missions interpreted and implemented framework guidance the best they could.
      Some missions were able to link the two processes, while other missions proceeded to
      Stage 2 of the framework without information concerning project design.

	 Missions did not consider technical capacity in all assessments. Of the eight Stage 2
   assessments completed after ADS Chapter 220 was revised,10 only two discussed the
   technical capacity of the partner-country entity being considered for USAID project funds.
   USAID missions expressed the need for more guidance on the coordination and timely
   involvement of technical offices in assessing and assuring the technical capacity of a
   partner-country institution. For instance, USAID/Peru noted that framework guidance
   focuses exclusively on administrative capacity, with little or no explanation of technical
   offices’ due diligence. The mission’s risk assessment focused on procurement, financial,
   and legal aspects of risk management but was not well coordinated with the relevant
   technical office. The mission later asked the technical office to assess whether the partner-
   country institution had a minimum acceptable standard of technical capacity in health
   program implementation. Without further guidance on the involvement of technical offices
   and the incorporation of technical capacity evaluations into the assessments, mission
   assessments may not include factors vital to the successful management and
   implementation of USAID-funded projects.

	 Missions performed varying levels of testing in Stage 2 risk assessments. In reviewing
   34 Stage 2 assessments, we noted that the type and extent of testing were often unknown,
   and that if testing was performed, it was very limited. For example, USAID/Peru’s testing
   was limited to walk-throughs of the Regional Government of San Martin’s public financial
   management systems to gain an understanding of them. Although USAID/Peru noted the
   use of professional judgment in the conduct of those assessments, the assessment team
   did not document its process or perform testing to determine the effectiveness of systems
   operations and internal controls. OIG notified USAID/Peru of the weaknesses described
   above. In contrast, USAID/Bangladesh described the type and extent of testing performed in
   relevant areas of public financial management to support its decision to proceed with the
   use of partner-country systems. Without adequate testing of relevant public financial
   management systems, uncertainty exists as to whether the partner-country institutions
   assessed have sufficient capacity to manage USAID-funded assistance.

To address these weaknesses, we make the following recommendations.

      Recommendation 4. We recommend that the Office of the Chief Financial Officer, in
      coordination with the Bureau for Policy, Planning and Learning, revise Automated
      Directives System Chapter 220 and Public Financial Management Risk Assessment
      Framework guidance to explain how the Public Financial Management Risk Assessment
      Framework and project design relate to one another.

      Recommendation 5. We recommend that the Office of the Chief Financial Officer, in
      coordination with the Bureau for Policy, Planning and Learning, revise Automated
      Directives System Chapter 220 and Public Financial Management Risk Assessment
      Framework guidance to elaborate on how technical capacity evaluations should be used
      to inform the Public Financial Management Risk Assessment Framework.



10
     ADS 220 was revised and issued on March 26, 2012.

                                                                                              9
Recommendation 6. We recommend that the Office of the Chief Financial Officer revise
Stage 2 guidance to describe the importance and types of public financial management
testing and require missions to document the type and extent of testing performed in
Stage 2 assessments.

Recommendation 7. We recommend that the Office of the Chief Financial Officer verify
that USAID/Peru updates its Stage 2 assessment of the Regional Government of San
Martin by testing relevant areas of public financial management to determine the
effectiveness of system operations and internal controls, identify risks and modify its risk
mitigation plan as appropriate, and maintain supporting documentation for all testing
performed to demonstrate due diligence in accordance with Automated Directives
System Chapter 220.




                                                                                               10
EVALUATION OF MANAGEMENT
COMMENTS
USAID’s Bureau for Management, which oversees CFO, has made management decisions on
all seven recommendations. The bureau agreed with all of the recommendations and submitted
planned actions and estimated dates for completion. The Audit Performance and Compliance
Division of USAID’s Office of the Chief Financial Officer will determine final action upon
completion of the corrective actions. The Agency’s written comments on the draft report are
included in their entirety as Appendix II.

Recommendation 1. CFO and USAID/Ghana are planning their onsite review of all Stage 2
activity—including the Resiliency in Northern Ghana Project—to identify all material risks,
develop effective risk mitigation plans to address those risks and support program design, and
ensure overall compliance with the guidance. The onsite review will include CFO staff members
to guide the process. Additionally, CFO has drafted a revision to ADS Chapter 220 to be
finalized in August 2013; in conjunction with the release of the revised ADS Chapter 220, CFO
is planning to revise Stage 2 guidance to include procedures to validate compliance of risk
assessments with ADS Chapter 220. The target date for completion of these actions is
December 2013.

In its comments, the bureau asked OIG to clarify that although we examined and found
weaknesses in 16 of USAID/Ghana’s assessments affiliated with the Resiliency in Northern
Ghana Project, the mission used only 5 of those assessments to develop risk mitigation
measures. We do not believe this clarification is necessary. We looked at all applicable Stage 1
appraisals and Stage 2 assessments, whether or not a mission chose to proceed further
through the framework. Moreover, given the weaknesses found in those 16 assessments, the
bureau’s comment raises questions about basing risk mitigation plans on faulty assessments.
Hence, we recommended an onsite review.

Recommendation 2. USAID/South Africa, with CFO staff, initiated a reassessment of the
mission’s Stage 1 rapid appraisal to include additional interviews and meetings with local
officials and organizations. The updated Stage 1 report and supporting documents are in
progress, with an anticipated completion date of December 2013.

Recommendation 3. CFO plans to revise both Stage 1 and Stage 2 guidance to include the
scope, roles, and responsibilities of quality assurance for CFO. The revised guidance will also
clarify mission roles and responsibilities in the assessment process. The target date for revising
and finalizing the guidance is December 2013.

Recommendation 4. CFO and the Office of Policy, Planning and Learning collaborated on draft
revisions to ADS Chapter 220 and ADS Chapter 201, “Planning,” which includes the Agency’s
project design guidance. The integration of the framework in project design is addressed by
modifications to both ADS chapters. For example, the revised version of Chapter 220 addresses
the timing of Stage 1 appraisals and Stage 2 risk assessments to better coincide with a
mission’s Country Development and Cooperation Strategy and project design processes. Also,
the revised ADS Chapter 220 presents in both narrative and visual form how the framework,
project design, and implementation interrelate. Additionally, the revised ADS chapters include



                                                                                               11
detailed cross-references to each other. The target date for finalizing the guidance is December
2013. Furthermore, in February 2013, in an effort to help missions address issues related to
coordinating government-to-government (G2G) project design and implementation, the Agency
established the G2G Information Desk. Professionals representing USAID offices with
experience and expertise in developing and implementing government-to-government projects
staff the information desk.

Recommendation 5. To appropriately address the evaluation of the capacity of a proposed
partner institution, CFO and the Policy, Planning and Learning Office reviewed guidance related
to technical capacity analyses in ADS Chapters 101 and 220. Although technical analyses were
previously considered optional, the integration of government-to-government activities and
projects into mission programming makes them mandatory. The upcoming revisions of ADS
Chapter 201 will require technical analysis as part of project design, and the draft revision of
ADS Chapter 220 references this requirement in the context of government-to-government
projects and activities. The target date for finalizing the guidance is December 2013.

Recommendation 6. CFO plans to revise both Stage 1 and Stage 2 framework guidance.
Revisions to the Stage 2 guidance for risk assessments will include language describing the
importance and appropriate use of testing, along with requirements for documenting the type
and extent of testing performed. The target date for revising and finalizing the guidance is
December 2013.

Recommendation 7. CFO and USAID/Peru discussed an approach to updating the mission’s
Stage 2 risk assessment for the Regional Government of San Martin. The mission will review its
initial assessment and then include testing of relevant areas of public financial management to
determine the effectiveness of systems operations and internal controls, identify risks and
develop an appropriate risk mitigation plan, and maintain supporting documentation for testing
to demonstrate due diligence. The target date for completing the update is December 2013.

While the bureau agreed with all seven recommendations, it did not agree with the assignment
of Recommendations 1, 2, and 7 to the Office of the Chief Financial Officer. We would like to
reiterate our rationale for the assignment of those recommendations. As noted in management
comments, CFO’s risk management team is responsible for quality assurance, including the
consistent application of the Public Financial Management Risk Assessment Framework. An
overriding observation stemming from USAID’s experience in the application of the framework
was the need for effective oversight. Therefore, we recommended that CFO designate a more
active oversight role with additional quality assurance controls over the assessment process to
its risk management team. Likewise, we addressed Recommendations 1, 2, and 7 to the Office
of the Chief Financial Officer to work with the mission and empower the risk management team
to exercise their responsibility to provide quality assurance concerning USAID/Ghana,
USAID/South Africa, and USAID/Peru’s conduct and application of the early stages of the
framework. During the course of this review, we also communicated to those missions the
problems found with their assessments, along with suggestions for improvement.

The bureau provided additional comments to be considered in preparing the final report. These
comments were previously provided to the OIG review team by CFO in April 2013 and were
considered and incorporated into the draft report as appropriate. These comments reappear in
USAID’s formal response, even though we addressed most of them in the draft report provided
for comment.



                                                                                             12
                                                                                    Appendix I



SCOPE AND METHODOLOGY
Scope
OIG conducted this review in accordance with generally accepted government auditing
standards. Specifically, we followed the general standards in Chapter 3 of U.S. Government
Auditing Standards and documentation standards, Sections 6.79–6.83. We also complied with
the government auditing evidence standard, Sections 6.56–6.59, and with the standards for
developing elements of a finding, Sections 6.74–6.77. These standards require that we perform
the review to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions, in accordance with our objectives. We believe that the evidence
obtained provides that reasonable basis.

The review objectives were to determine (1) whether USAID’s assessments of partner-country
institutions and local organizations under IPR served their purpose and informed USAID
missions about the risks associated with implementing assistance through local entities and
(2) whether risk mitigation measures were developed and implemented through the assessment
process. The review covered the 24 USAID missions whose assessments were completed as of
August 7, 2012 (listed in Appendix III).

OIG performed fieldwork from October 5, 2012, to March 27, 2013. The Performance Audits
Division managed the review and conducted fieldwork in Washington, D.C., while our Regional
Inspector General Offices performed fieldwork in San Salvador, Dakar, Pretoria, Cairo, and
Manila.

Methodology
In planning and performing the review, we gained an understanding of the application of
USAID’s Public Financial Management Risk Assessment Framework and Non-U.S.
Organization Pre-Award Survey by reviewing guidance and meeting with Agency stakeholders.
We met with USAID officials in the Offices of the Chief Financial Officer, General Counsel,
Acquisition and Assistance, and Democracy and Governance. We held meetings and interviews
with mission officials as needed.

To answer our review objectives, we collected information from 24 USAID missions and
examined, in accordance with applicable guidance, rapid appraisals and risk assessments
under IPR Objective 1, and preaward surveys and awards made under IPR Objective 2.
Specifically, for Objective 1, strengthening partner-country systems, we reviewed Stage 1
appraisals performed by all 24 missions and Stage 2 assessments completed by 7 of the 24
missions: Bangladesh, Ghana, Jordan, Moldova, Peru, Rwanda, and Tanzania. We also
reviewed risk mitigation plans developed by these seven missions to determine whether they
developed and implemented appropriate risk mitigation measures. For Objective 2,
strengthening local civil society and private sector capacity, we reviewed the use of the
preaward survey tool for awards made to local organizations by 4 of the 24 missions: Armenia,
Philippines, Rwanda, and South Africa. In addition, we reviewed risk mitigation plans developed
by these four missions to determine whether risk mitigation measures were developed and
implemented as appropriate.




                                                                                            13
                                                                                Appendix I



In addition to reviewing assessments and risk mitigation plans, we solicited and received
feedback from assessment teams in all 24 missions on the guidance and processes for
conducting assessments and using the preaward survey tool. We followed up with ten of those
missions for further elaboration and context.




                                                                                        14
                                                                                     Appendix II



MANAGEMENT COMMENTS


                                                                                  May 23, 2013

MEMORANDUM

TO: 	         OIG/A, Nathan S. Lokos, Acting Director, Performance Audits Division

FROM: 	       A-AA/M, Angelique M. Crumbly /s/

SUBJECT:	 Bureau for Management Comments on the draft Report of the Review of
          USAID’s Partner Country and Local Organization Assessment Systems under
          Implementation and Procurement Reform (Report no. 9-000-12-003-X) dated
          May 8, 2013

Thank you for the opportunity to provide comments on the draft USAID’s Partner Country and
Local Organization Assessment Systems under Implementation and Procurement Reform report.

Overall, we agree with the recommendations outlined in the report. We do not concur with the
assignment of all recommendations to the Bureau for Management, Office of the Chief Financial
Officer. We recommend those recommendations that require individual missions to take specific
action be directed to the respective mission, as indicated in our responses below. As noted in
ADS 220, the Mission Director/Principal Officer is responsible for the conduct of the Public
Financial Management Risk Assessment Framework (PFMRAF). The Global Partner Country
Systems Team in the office of the M/CFO has a quality assurance role, which includes ensuring
consistent application of the PFMRAF. Fulfillment of these recommendations requires action by
the individual missions and cooperation with other respective USAID stakeholders.

We all should be mindful of the history and the challenges faced by operating units and Missions
as this new policy implementation tool was advanced to support implementation of a major
change in policy direction for USAID. We also note that though the Agency is committed to
rigorously assess risks through this process, the mechanisms and guidance in place continue to
evolve.

	 While we agree that 17 of the 34 assessments you reviewed did not meet the expected
   standard, we note that 16 of those come from a single Mission and the remaining one was
   completed prior to issuance of ADS 220 and related guidance. We request language be


                                                                                             15
                                                                                        Appendix II


   revised to recognize that there appears to be a situation in a single Mission that will be
   corrected, rather than that half of all assessments do not meet expected standards.

	 The text of Section II makes a strong case for strengthened tools to implement and oversee
   the PFMRAF process. A title that is more reflective of that case, such as “USAID Requires
   Strengthened Policy Tools,” would strengthen the document and contribute to our ability to
   obtain those tools.

	 There is a paraphrase and quote at the bottom of page 5 that incorrectly implies that the first
   Stage 2 assessment completed to standard was in early 2013. This is incorrect. Stage 2
   Assessments performed by contractors/expert auditors have met our standards since
   2011. The first Stage 2 assessment performed solely by a Mission without outside
   professional services assistance that fully met our standards was delivered in January 2013.

	 We suggest some technical edits for clarity:

       o	 Within the introduction, establishing the number of Missions tested in any given
          category, before discussing results (example Seven Missions were tested for risk
          mitigation plans. Of the seven, all seven identified risk mitigation measures…”)
       o	 Titles of findings should be revised to reflect the contents (for example, second
          finding, page two could be revised to read ‘Agency Use of Partner Country Systems
          Guidance Should Better Integrate New Strategic Planning, Project Design, and
          Program Cycle Guidance’)


Management responses specific to each recommendation are included below.

Recommendation 1. The Bureau for Management, Office of the Chief Financial Officer, in
coordination with USAID/Ghana, 1) conduct an onsite review of USAID/Ghana’s
implementation of the Public Financial Management Risk Assessment Framework for the
Resiliency in Northern Ghana project to ensure all material risks were identified and effective
mitigation measures were developed; and 2) institute procedures to verify that all future Stage 2
assessments comply with the Public Financial Management Risk Assessment Framework
guidance.

Management Decision:

We agree with this recommendation. However, the recommendation should be directed to
USAID/Ghana for action. While USAID/Ghana understood the ADS 220 guidance and
effectively implemented most of it, the Mission did not exercise adequate supervision over the
15 Stage 2 Risk Assessments which were contracted out to a local contractor. It should be noted
that on page 2 of the report, Office of the Inspector General (OIG) states that 16 assessments had
been reviewed for the USAID/Ghana Resiliency in Northern Ghana (RING) project. To date,
only 5 of the 16 assessments have been used to develop risk mitigation measures for the ADS
220 required Approval of Use of Partner Government Systems (AUPGS) approval.

                                                                                                 16
                                                                                          Appendix II


Nevertheless, OIG included all 16 RING assessments within this review. The report should
clarify this distinction.

USAID/Ghana, together with M/CFO are currently planning to conduct an onsite review of all
PFMRAF Stage 2 activity underway at the mission, including the Northern Ghana RING
project, to ensure all material risks are identified, effective risk mitigation plans are developed to
address these risks and support respective program design, and ensure overall compliance with
PFMRAF guidance. This review will include an onsite team from M/CFO to guide the process.

Further, USAID/Washington is currently finalizing guidance for a comprehensive update to ADS
220, Use of Reliable Partner Government Systems for Direct Management and Implementation
of Assistance. M/CFO distributed a draft revision of ADS 220 to USAID/Washington and
Missions on May 6, 2013. The finalized ADS 220 is anticipated for August 2013. In
conjunction with the release of the revised ADS 220, M/CFO plans to revise both Stage 1 and
Stage 2 guidance. Revised Stage 2 guidance will include procedures to validate that Stage 2 risk
assessments are in compliance with ADS 220.

Target Completion Date:

December 2013
Recommendation 2. The Bureau for Management, Office of the Chief Financial Officer review
and approve updates to the USAID/South Africa Stage 1 appraisal to verify that fiduciary risks
are clearly identified and assessed.
Management Decision:

We agree with this recommendation. However, the recommendation should be directed to
USAID/South Africa for action. As a proactive response to the draft of this recommendation,
USAID/South Africa initiated a reassessment of the Stage 1 Rapid Appraisal with staff from a
crosscutting set of Mission offices and from M/CFO. The reassessment included additional
interviews and meetings with select South African governmental officials, local Non-
Governmental Organizations, and donor representatives operating in-country. Revision of the
Stage 1 report and supporting documents is in progress.

Target Completion Date:

December 2013
Recommendation 3. The Bureau for Management, Office of the Chief Financial Officer revise
Automated Directives System 220 and Stage 1 and Stage 2 guidance to designate a more active
oversight role for Global Partner Country Systems Risk Management Team, to include
additional quality assurance controls over the Public Financial Management Risk Assessment
Framework process.


                                                                                                    17
                                                                                      Appendix II


Management Decision:

We agree with this recommendation. M/CFO is currently finalizing guidance for a
comprehensive update to ADS 220, Use of Reliable Partner Government Systems for Direct
Management and Implementation of Assistance. M/CFO distributed a draft revision of ADS 220
to USAID/W and Missions on May 6, 2013. The finalized ADS 220 is anticipated for August
2013. In conjunction with the release of the revised ADS 220, M/CFO plans to revise both Stage
1 and Stage 2 guidance. These revisions will include more specified roles and responsibilities
including:

          Clearance by M/CFO of Mission Stage 1 Risk Assessment Report, Stage 2 Statement
           of Work (SOW), Stage 2 Risk Assessment Report, and other select documents
           integral to the PFMRAF process; and
          Quality assurance scope, roles, and responsibilities for the Mission and M/CFO


Additionally, revised Stage 1 and Stage 2 guidance will clarify Mission roles and responsibilities
in the PFMRAF process to include:

          Communicating to M/CFO and other key USAID stakeholders plans and progress of
           the PFMRAF process; and
          Defined timelines for completing PFMRAF process deliverables.


Target Completion Date:

December 2013

Recommendation 4. The Bureau for Management, Office of the Chief Financial Officer, in
coordination with the Bureau for Policy, Planning and Learning, revise Automated Directives
System 220 and Public Financial Management Risk Assessment Framework guidance to include
an explanation of the public financial management risk assessment framework within a project
design context, and how the Public Financial Management Risk Assessment Framework and
project design relate to one another.

Management Decision:

We agree with this recommendation. At the time of the performance review, USAID’s office of
Policy, Planning and Learning (PPL) was revising project design guidance, in part to reflect
USAID’s renewed emphasis on partnering with partner country governments, where appropriate
and prudent, to implement directly USAID-funded projects. To capture this revised guidance,
M/CFO distributed a draft revision of ADS 220 to USAID Missions and USAID/Washington on
May 6, 2013. This revision was prepared with the full participation of USAID/PPL project
design staff and participation of Bureau management. Additionally, M/CFO government-to-

                                                                                               18
                                                                                       Appendix II


government (G2G) implementation staff has collaborated with PPL on the latest version of ADS
201, Planning, which contains the Agency’s project design guidance. The integration of
PFMRAF into project design is addressed by modifications to both ADS 201 and ADS 220. The
revised version of ADS 220 (in draft) expands and explains the public financial management risk
assessment framework within the project design context. For example, the following revisions
are included:

          The timing of the PFMRAF Stage 1 Appraisals and Stage 2 Risk Assessments has
           been revised to better coincide with the Country Development Cooperation Strategy
           (CDCS) (Stage 1) and the project design process and project life (Stage 2).
          Clarifications in both ADS 220 and ADS 201 require that Project Approval
           Documents (PAD) include the AUPGS and the risk mitigation plan and that the PAD
           be finalized and authorized prior to sub-obligation of funds for both G2G and
           USAID-direct activities.
          Clarifications better describe how G2G risk mitigation and capacity building
           activities are incorporated into the project design process, the PAD authorization, and
           bilateral agreements.


The new version of ADS 220 includes separate and detailed discussions of the relationship of the
PFMRAF, the AUPGS, and the PAD/PA. It also expands on the preliminary G2G project design
and implementation guidance contained in the March 2012 version of ADS 220. This includes
detailed information on how G2G projects and project activities are managed through, and relate
to standard project design, authorization, obligation and implementation. (Ref. ADS 220.3.2 (a-
c). The revised ADS 220 addresses this issue both in narrative and in a visual presentation,
showing in detail how the PFMRAF, project design, and implementation management
interrelate. The draft visual was previously provided to the IG Audit Team.

Of equal importance, the revised ADS 201 Chapter, Planning, which includes project design
guidance, has now been edited to include detailed cross-references to ADS 220, just as ADS 220
now includes similar cross-references to ADS 201. As a result, we are confident that official
guidance on project design and on G2G risk assessments are appropriately cross-referenced and
complete for project design. The revised ADS 201 is pending issuance.

To further address Mission issues relating to coordination of G2G design and implementation,
the Agency established the G2G Information Desk (Info Desk) through an Agency Notice issued
on February 13, 2013. The Info Desk is staffed by a team of professionals with significant
amount of experience and expertise in using and developing G2G projects in USAID; including
M, GC, PPL and IPR staff. The Info Desk is actively responding to a variety of questions about
G2G assessment, design, and implementation and is establishing itself as a valuable resource.
Most of the clients of the Info Desk are Missions with specific design, implementation, and
funds management inquiries or questions. The Info Desk is able to provide answers tailored to

                                                                                                19
                                                                                       Appendix II


the specific circumstances of individual Mission projects related to the PFMRAF, the G2G
project design processes, and financial and project management of G2G activities.

Target Completion Date:

December 2013

Recommendation 5. The Bureau for Management, Office of the Chief Financial Officer, in
coordination with the Bureau for Policy, Planning and Learning, revise Automated Directives
System 220 and Public Financial Management Risk Assessment Framework guidance to include
further guidance regarding how technical capacity evaluations should be used to inform the
Public Financial Management Risk Assessment Framework process.
Management Decision:

We agree with this recommendation. The draft revision of ADS 220 expands on and directs the
roles and responsibilities of technical officers in the PFMRAF and Project Design processes.

USAID/M, GC, and PPL staff worked closely together to coordinate and integrate guidance on
technical capacity analyses (for health services, agriculture, etc.). These analyses are usually
considered as part of project designs. With the greater integration of G2G project activities into
Mission projects, technical analyses, previously considered optional, will become mandatory.
Technical capacity forms part of the basic hypothesis and assumptions for Project design, and
project-level evaluation or analyses of partner implementing or beneficiary institutions (public or
private) will be undertaken as part of the Project Design process. New ADS 201 project design
guidance has been revised to require technical capacity analysis as part of a Project’s required
sustainability analysis. It may also be addressed in the optional institutional analysis, and is an
issue to be considered in preparing the Project Implementation Plan.

Technical capacity analyses for public financial management and procurement are covered in the
PFMRAF Stage 2 guidance and technical capacity building activities for PFM are included in the
Risk Mitigation Plan, required as part of the AUPGS.

To address this recommendation, the M/CFO team reviewed with PPL the ADS 201 guidance
related to technical capacity analyses and the ADS 220 PFMRAF guidance to appropriately and
consistently address the concern that technical capacity of a proposed partner institution be
evaluated as part of project design. The upcoming revision of ADS 201 will require such
analysis as part of project design, and the draft revision of ADS 220 references this requirement
in the context of G2G projects and project activities.

Target Completion Date:

December 2013



                                                                                                20
                                                                                       Appendix II


Recommendation 6. The Bureau for Management, Office of the Chief Financial Officer revise
Stage 2 guidance to 1) describe the importance and types of public financial management
testing, and 2) require missions to document the type and extent of testing performed in Stage 2
assessment reports.

Management Decision:

We agree with this recommendation. In the current version of ADS 220, testing of PFM systems
is included as necessary to validate overall systems operations and internal controls and identify
performance risks. This language was used to distinguish the PFMRAF Stage 2 – Risk
Assessment from a general audit, which prescribes methods and types of testing used to support
an attestation. The PFMRAF Stage 2 – Risk Assessment is neither an audit nor attestation of
PFM systems, but rather an identification of risks associated with the achievement of a
development objective relative to the country systems to be used. For this reason, testing within
PFMRAF can also be referred to as “Validation or Confirmation”. Testing should be used in
Stage 2 Risk Assessments to confirm existence and implementation of a public financial
management process, activity, control or aspects of a system(s) and to determine the nature and
functionality of such processes the Mission will by relying upon in using country systems.
Typically, these relevant processes are identified in the course of gathering information from the
partner government to assess evaluation criteria (selected from the Stage 2 – Risk Assessment
Questionnaire) relative to areas covered within the scope of a PFMRAF Stage 2 – Risk
Assessment.

The extent of testing is subjective and relative to the areas considered important and relevant by
the evaluator. Testing should include examination of documents and transactions to confirm the
existence of key processes and controls and “walk-throughs” to confirm or validate processes are
consistent with how they have been described. Testing is not intended to be of a statistical nature
but a random sampling based on professional judgment to provide anecdotal evidence of issues.

Missions are responsible for documenting the type (for example, examination of specific
documents and walkthroughs of relevant processes to confirm or validate a process, activity or
control) and extent (number of documents and transactions reviewed; and areas tested, such as
budget, payroll, procurement, payment, financial reporting, and internal and external audit) of
testing performed in Stage 2 Risk Assessment reports. This will provide evidence of the due
diligence conducted to evaluate fiduciary risks in the Stage 2 Risk Assessment.

USAID/Washington is currently finalizing guidance for a comprehensive update to ADS 220.
M/CFO and the Office of the General Counsel distributed a draft revision of ADS 220 to USAID
Missions and USAID/Washington on May 6, 2013. The finalized ADS 220 is anticipated for
August 2013. In conjunction with the release of the revised ADS 220, M/CFO plans to revise
both PFMRAF Stage 1 and Stage 2 guidance. Revisions to Stage 2 guidance will include:

                                                                                                  21
                                                                                        Appendix II


      Language describing the importance and appropriate use of testing during respective
       Stage 2 Risk Assessments; and
      Requirements for documenting the type and extent of testing performed during the Stage
       2 Risk Assessments.

Target Completion Date:

December 2013

Recommendation 7. The Bureau for Management, Office of the Chief Financial Officer ensure
that USAID/Peru update its Stage 2 assessment of the Regional Government of San Martin to
include testing of relevant areas of public financial management to (1) determine the
effectiveness of system operations and internal controls, and (2) identify risks and modify its risk
mitigation plan as appropriate; and maintain supporting documentation for all testing
performed to demonstrate due diligence in accordance with Automated Directives System 220.
Management Decision:

We agree with this recommendation. However, this recommendation should be directed to
USAID/Peru for action. In the Stage 2 Risk Assessment of the Regional Government of San
Martin, though USAID/Peru used professional judgment in the conduct of those assessments, the
assessment team did not document its process or perform testing to determine the effectiveness
of systems operations and internal controls. As outlined in ADS 220 (220.3.2.2), every
step/stage of the PRMRAF must be appropriately documented, along with any risk mitigation
measures agreed upon by USAID and the Partner Country government. ADS 220 allows for an
update to assessments to ensure current risk identification and mitigation measures are
appropriately identified and documented. M/CFO and USAID/Peru have discussed this
recommendation and an approach to update the Stage 2 Risk Assessment for the Regional
Government of San Martin project. USAID/Peru is planning a review of the initial assessment
which will include testing of relevant public financial management areas in order to:

      Determine the effectiveness of systems operations and internal controls,
      Identify risks and develop an appropriate risk mitigation plan, and
      Maintain all testing documentation as appropriate


Target Completion Date:

December 2013




                                                                                                  22
                                                                        Appendix III



USAID MISSIONS REVIEWED 

Below is a regional list of USAID missions selected for OIG’s review.

Asia

1.   Bangladesh
2.   East Timor
3.   Nepal
4.   Philippines


Europe and Eurasia

5.   Armenia
6.   Kosovo
7.   Moldova
8.   Serbia

Latin America and the Caribbean

9. Barbados
10. El Salvador
11. Jamaica
12. Peru
13. Trinidad and Tobago

Middle East

14. Jordan

East and Southern Africa

15. Kenya
16. Malawi
17. Mozambique
18. Rwanda
19. South Africa
20. Tanzania

West Africa

21. Ghana
22. Liberia
23. Mali
24. Senegal




                                                                                 23
                                                                                                 Appendix IV



GUIDANCE RELEASE DATES
AND TIMING OF ASSESSMENTS
                                             Stage 1 Rapid
Date         USAID Guidance                                  Stage 2 Risk Assessments
                                             Appraisals
 8/19/2010   Stage 2 questionnaire
 11/1/2010                                   Liberia
 11/9/2010                                   Peru
 1/18/2011                                   Rwanda
 1/19/2011                                   Armenia
 1/31/2011   Stage 1 guidance
  3/9/2011                                   Tanzania
             Stage 2 questionnaire –
 4/22/2011
             revision 1
 4/26/2011                                   Ghana
 4/29/2011                                   South Africa
 6/16/2011                                   Malawi
 6/29/2011                                                   Rwanda (performed by Deloitte)
  7/6/2011                                   Jamaica
 7/11/2011                                   Moldova
 7/14/2011   Stage 1 guidance – revision 1
             Stage 2 questionnaire –
  8/1/2011
             revision 2
 8/16/2011   ADS Chapter 220
                                                             Ghana (3 assessments – performed by local
  9/1/2011
                                                             contractor)
 9/12/2011                                   Senegal
 10/1/2011                                                   Ghana (performed by local contractor)
 10/3/2011                                                   Peru (performed by mission staff)
10/10/2011                                   Bangladesh
10/17/2011                                   Mali
10/19/2011                                                   Jordan (performed by mission staff)
10/25/2011                                   Jordan
                                                             Ghana (11 assessments – performed by
 11/1/2011                                   El Salvador
                                                             local contractor)
 11/7/2011                                   Mozambique
 11/7/2011                                   East Timor
11/30/2011                                                   Moldova (performed by mission staff)
                                             Trinidad and
  1/1/2012
                                             Tobago
  1/1/2012                                   Barbados
  1/5/2012                                                   Rwanda (performed by Deloitte)




                                                                                                         24
                                                                                                Appendix IV


                                             Stage 1 Rapid
Date         USAID Guidance                                  Stage 2 Risk Assessments
                                             Appraisals
 1/17/2012                                   Kosovo
 1/27/2012                                                   Ghana (performed by mission staff)
 1/29/2012                                                   Tanzania (performed by Deloitte)
 1/30/2012   Stage 1 guidance – revision 2
  2/7/2012   Stage 2 guidance – revision 3
                                                             Rwanda (4 assessments performed by
 2/10/2012
                                                             Deloitte and mission staff)
 2/13/2012                                   Philippines
 3/21/2012   Stage 1 guidance – revision 3
 3/26/2012   ADS Chapter 220 revised
 3/27/2012                                                   Tanzania (performed by mission staff)
                                                             Rwanda (performed by mission staff with
 4/13/2012
                                                             Deloitte review)
 4/25/2012   Stage 2 guidance – revision 4
 4/30/2012                                                   Ghana (performed by mission staff)
                                                             Rwanda (performed by Deloitte and local
  5/4/2012
                                                             contractor)
  5/7/2012                                                   Ghana (performed by mission staff)
  5/7/2012                                   Serbia
                                                             Rwanda (performed by Deloitte and mission
 5/15/2012
                                                             staff)
                                                             Bangladesh (performed by Deloitte and
 5/30/2012
                                                             mission staff)
  6/1/2012                                   Nepal
                                                             Rwanda (performed by Deloitte and mission
 6/15/2012
                                                             staff)
 7/13/2012                                   Kenya
  8/8/2012   Stage 2 guidance – revision 5
 8/31/2012   Stage 1 guidance – revision 4
 9/26/2012   Stage 1 guidance – revision 5
 9/26/2012   Stage 2 guidance – revision 6




                                                                                                         25
